No. 20-6386

IN THE SUPREME COURT OF THE UNITED STATES
November 25, 2020

JAMES RAY EARL WALKER, Petitioner,
v.
THE STATE OF NEVADA, Respondent

CERTIFICATE OF SERVICE

I, Jonathan E. VanBoskerck, a member of the Bar of this Court, hereby
certify that on November 25, 2020, one copy of Respondent’s Letter
Requesting an Extension on Opposition to Petition for Writ of Certiorari
in the above-entitled case was mailed, first class postage prepaid.

To: JOANNE DIAMOND
Assistant Federal Public Defender
411 E. Bonneville Ave., Suite 250
Las Vegas, Nevada 89101
Counsel for Petitioner.

I further certify that all parties required to be served have been served.

ARE NBOSKERCK*
Chief Deputy District Attorney

Regional Justice Center

200 Lewis Avenue

Las Vegas, Nevada 89155-2212
(702) 671-2500

Counsel of Record*

 

Counsel for Respondent
